Audit Report




OIG-06-022
Audit of the Federal Financing Bank’s
Fiscal Years 2005 and 2004 Financial Statements
January 4, 2006




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220


                                                January 4, 2006
     OFFICE OF
INSPECTOR GE NER AL




             MEMORANDUM FOR SECRETARY SNOW

             FROM:                    Harold Damelin
                                      Inspector General

             SUBJECT:                 Audit of the Federal Financing Bank’s
                                      Fiscal Years 2005 and 2004 Financial Statements

             SUMMARY:

             I am pleased to transmit the attached audited Federal Financing Bank’s (FFB)
             financial statements for Fiscal Years (FY) 2005 and 2004, as required by the
             Government Corporation Control Act.

             DISCUSSION:

             We contracted with the independent certified public accounting firm KPMG LLP to
             audit FFB’s financial statements as of September 30, 2005 and 2004 and for the
             years then ended. The contract required that the audit be performed in accordance
             with generally accepted government auditing standards; applicable provisions of
             OMB Bulletin No. 01-02, Audit Requirements for Federal Financial Statements; and
             the GAO/PCIE Financial Audit Manual. The following reports, prepared by
             KPMG LLP, are incorporated in the attachment:

                      •   Independent Auditors’ Report on Financial Statements;
                      •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                          and
                      •   Independent Auditors’ Report on Compliance and Other Matters.

             In its audit of FFB’s financial statements, KPMG LLP found:

                      •   the financial statements were fairly presented, in all material respects, in
                          conformity with accounting principles generally accepted in the United
                          States of America (GAAP);
                      •   no matters involving internal control and its operation that are considered
                          material weaknesses; and
                      •   no instances of reportable noncompliance with laws and regulations tested.
Page 2



In addition, KPMG LLP issued a management letter dated October 31, 2005,
discussing certain matters that were identified during the audit, but which are not
required to be included in the audit reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing standards,
was not intended to enable us to express, and we do not express, an opinion on
FFB’s financial statements or conclusions about the effectiveness of internal control
or compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated October 31, 2005 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 622-1090, or a member
of your staff may contact Marla Freedman, Assistant Inspector General for Audit, at
(202) 927-5400.

Attachment

cc:   Donald V. Hammond
      Vice President, FFB

      Roger Kodat
      Vice President and Treasurer, FFB
     FEDERAL FINANCING BANK
           Financial Statements

       September 30, 2005 and 2004

(With Independent Auditors’ Report Thereon)
                                   FEDERAL FINANCING BANK


                                           Table of Contents



                                                                            Page

Independent Auditors’ Report on Financial Statements                          1

Financial Statements                                                          3

Notes to Financial Statements                                                 6

Other Supplementary Information – Schedule 1                                 13

Independent Auditors’ Report on Internal Control over Financial Reporting    14

Independent Auditors’ Report on Compliance and Other Matters                 16

Summary of the Status of Prior Year Findings – Exhibit I                     17
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                         Independent Auditors’ Report on Financial Statements


Inspector General, U.S. Department of the Treasury and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the accompanying statements of financial position of the Federal Financing Bank
(the Bank) as of September 30, 2005 and 2004, and the related statements of operations and changes in net
position and cash flows for the years then ended. These financial statements are the responsibility of the
Bank’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements. Those standards
and OMB Bulletin No. 01-02 require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Bank’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by management, as well
as evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financing Bank, as of September 30, 2005 and 2004, and the results of its
operations, changes in net position, and cash flows for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued reports dated October 31, 2005,
on our consideration of the Bank’s internal control over financial reporting and its compliance with certain
provisions of laws, regulations, contracts, and other matters. The purpose of those reports is to describe the
scope of our testing of internal control over financial reporting and compliance and the results of that
testing, and not to provide an opinion on the internal control over financial reporting or on its compliance
with laws, regulations, contracts, and other matters. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audits.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The other supplementary information included in Schedule 1 is presented for purposes of additional
analyses and is not a required part of the financial statements. Such information has not been subjected to
the auditing procedures applied in the audits of the basic financial statements and, accordingly, we express
no opinion on it.




October 31, 2005




                                                     2
                                        FEDERAL FINANCING BANK
                                            Statements of Financial Position
                                             September 30, 2005 and 2004
                                                 (Dollars in thousands)


                                   Assets                                           2005         2004
Funds with U.S. Treasury                                                       $      361,469      449,871
Loans receivable (notes 2 and 4)                                                   27,774,344   29,325,904
Advances to others                                                                        152           32
Accrued interest receivable                                                           182,972      249,309
              Total assets                                                     $   28,318,937   30,025,116
                        Liabilities and Net Position
Liabilities:
   Borrowings:
      Principal amount                                                         $   26,426,618   29,323,406
      Plus unamortized premium                                                        474,640           —
              Total borrowings (notes 3 and 4)                                     26,901,258   29,323,406
  Accrued interest payable                                                           197,036       88,720
  Other liabilities                                                                       —             4
              Total liabilities                                                    27,098,294   29,412,130
Net position (note 5)                                                               1,220,643     612,986
              Total liabilities and net position                               $   28,318,937   30,025,116


See accompanying notes to financial statements.




                                                           3
                                       FEDERAL FINANCING BANK
                              Statements of Operations and Changes in Net Position
                                   Years ended September 30, 2005 and 2004
                                             (Dollars in thousands)


                                                                                2005          2004
Revenue and financing sources:
  Interest on loans                                                     $      1,939,428      2,187,586
  Revenue from servicing loans                                                     3,436          3,645
             Total revenue                                                     1,942,864      2,191,231
Expenses:
  Interest on borrowings                                                       1,139,535      1,151,688
  Legislatively-mandated expense                                                 244,420        150,134
  Administrative expenses                                                          2,945          3,139
             Total expenses                                                    1,386,900      1,304,961
             Net income                                                          555,964       886,270
Net position:
  Beginning of year                                                              612,986      (273,284)
  Net income                                                                     555,964       886,270
  Gains on extinguishment of borrowings treated as capital
     transaction (note 6)                                                            51,693          —
  End of year (note 5)                                                  $      1,220,643       612,986


See accompanying notes to financial statements.




                                                       4
                                           FEDERAL FINANCING BANK
                                               Statements of Cash Flows
                                        Years ended September 30, 2005 and 2004
                                                  (Dollars in thousands)


                                                                                   2005           2004
Cash flows from operations:
  Net income                                                                 $      555,964        886,270
  Adjustments to reconcile net income to net cash provided
     by operations:
        Amortization of premium on loans                                            (32,973)            —
        Decrease in accrued interest receivable                                      66,337        144,696
        Increase in accrued interest payable                                        108,316          3,456
        (Increase) decrease in advances to others                                      (120)            31
        Decrease in other liabilities                                                    (4)          (227)
              Net cash provided by operations                                       697,520       1,034,226
Cash flows from investing activities:
  Loan disbursements                                                              (4,373,603)   (46,704,799)
  Loan collections                                                                 5,925,163     53,008,941
  Note receivable collection                                                         246,221             —
              Net cash provided by investing activities                           1,797,781       6,304,142
Cash flows from financing activities:
  Borrowings                                                                       4,373,603     47,577,451
  Repayments of borrowings                                                        (6,957,306)   (54,936,401)
              Net cash used in financing activities                               (2,583,703)    (7,358,950)
              Net decrease in cash                                                  (88,402)        (20,582)
Funds with U.S. Treasury – beginning of the period                                  449,871        470,453
Funds with U.S. Treasury – end of the period                                 $      361,469        449,871
Supplemental disclosures of cash flow information:
  Interest paid (net of amount capitalized)                                  $    1,066,269       1,153,185
Supplemental schedule of noncash investing and
  financing activities:
  Decrease in loans for capitalized interest receivable                      $       10,837          15,926
  Increase in borrowings for capitalized interest payable                             4,303           7,272
  Gains on early extinguishment of borrowings treated as capital
     transactions. (note 6)                                                          51,693              —
  The Bank issued borrowings of $14,246,221 and a related premium of
     $507,613 in exchange for an investment and related interest
     receivable totaling $14,753,834. (note 6)
  The Bank extinguished borrowings of $14,447,217 using an
     investment and related interest receivable totaling
     $14,753,834. In addition, the Bank received a note receivable
     for $246,221 that was due on December 31, 2004. (note 6)


See accompanying notes to financial statements.




                                                            5
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2005 and 2004
                                             (Dollars in thousands)



(1)   Summary of Significant Accounting Policies
      The Federal Financing Bank (the Bank) was created by the Federal Financing Bank Act of 1973
      (12 USC 2281, the Act) as an instrumentality of the U. S. Government and a body corporate under the
      general supervision of the Secretary of the Treasury (the Secretary). The budget and audit provisions of the
      Government Corporation Control Act are applicable to the Bank in the same manner as they are applied to
      other wholly owned government corporations.

      The Bank was established by Congress at the request of the U.S. Department of the Treasury (Treasury), in
      order “to assure coordination of federal and federally assisted borrowing programs with the overall
      economic and fiscal policies of the U. S. Government, to reduce the cost of federal and federally assisted
      borrowing from the public, and to assure that such borrowings are financed in a manner least disruptive of
      private financial markets and institutions.” The Bank was given broad statutory authority to finance
      obligations issued, sold, or guaranteed by federal agencies so that the Bank could meet these debt
      management objectives.

      The Bank is authorized, with the approval of the Secretary to issue obligations to the public in amounts not
      to exceed $15,000,000. Additionally, the Bank is authorized to issue obligations in unlimited amounts to
      the Secretary and, at the discretion of the Secretary, may agree to purchase any such obligations.

      (a)   Basis of Presentation
            The Bank has historically prepared its financial statements in accordance with accounting principles
            generally accepted in the United States of America (GAAP), based on standards issued by the
            Financial Accounting Standards Board (FASB), the private-sector standards-setting body. In
            October 1999, the American Institute of Certified Public Accountants (AICPA) designated the
            Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for the
            financial statements of federal government entities, with respect to the establishment of accounting
            principles generally accepted in the United States of America. The FASAB has indicated that
            financial statements prepared based upon standards promulgated by the FASB may also be regarded
            as in accordance with GAAP for those federal entities, such as the Bank, that have issued financial
            statements based upon FASB standards in the past. Accordingly, consistent with historical reporting,
            the Bank’s financial statements are presented in accordance with accounting and financial reporting
            standards promulgated by the FASB.

      (b)   Basis of Accounting
            The financial statements are presented on the accrual basis of accounting. The Bank recognizes loans
            when they are issued and related repayments when they are received. The Bank recognizes
            borrowings when they are received and repayments when they are made. In addition, the Bank
            recognizes interest on loans and revenue from servicing loans when they are earned and recognizes
            interest on borrowings and expenses when they are incurred.




                                                       6                                             (Continued)
                                  FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2005 and 2004
                                        (Dollars in thousands)



(c)   Funds with U.S. Treasury
      As a government corporation, the Bank maintains a Fund Balance with Treasury (fund
      account 20X4521) and does not hold cash. For the purposes of the statement of cash flows, the funds
      with Treasury are considered cash.

(d)   Loans Receivable
      The Bank issues loans to federal agencies for their own use or to issue loans to private sector
      borrowers, whose loans are guaranteed by the federal agencies. When a federal agency has to honor
      its guarantee because a private sector borrower defaults, the federal agency must obtain an
      appropriation or use other resources to pay the Bank. Loan principal and interest are backed by the
      full faith and credit of the U.S. Government, except for loans to the U.S. Postal Service. The Bank
      has not incurred and does not expect to incur any credit-related losses on its loans.

(e)   Interest on Loans
      The Bank’s general policy is to capture the liquidity premium between Treasury securities and the
      private sector lending rates, and to charge a rate that reflects the risk inherent in a borrower or
      transaction, when such a rate will accomplish a broader goal. The income resulting from the interest
      spread covers the administrative expenses of the Bank and any surplus is transferred to the
      Treasury’s General Fund. Under amendments to the Federal Credit Reform Act, effective
      October 1, 1998, while the Bank is permitted to charge a spread on new lending arrangements with
      government-guaranteed borrowers, the margin is not retained by the Bank, but rather is maintained
      by the loan guarantor. In the event that this results in the Bank being unable to fund its administrative
      expenses related to these loans, the Federal Credit Reform Act, as amended, states that the Bank may
      require reimbursements from loan guarantors.

(f)   Capitalized Interest
      In accordance with loan agreements with the Bank, the General Services Administration (GSA) and
      Historically Black Colleges and Universities (HBCU) have the option of deferring payments of
      interest on their loans until future periods. When GSA or HBCU elect, in advance, to defer interest
      payments, the accrued interest is recorded as capitalized interest receivable and added to the
      respective loan balance by the Bank. The Bank correspondingly capitalizes the interest payable on its
      related borrowings.

(g)   Premium on Borrowings
      The Bank amortizes the premium on borrowings using the effective interest method. The
      amortization is recorded as part of interest on borrowings on the statement of operations and changes
      in net position.

(h)   Revenue from Servicing Loans
      The Bank charges certain Rural Utilities Services (RUS) borrowers a loan service fee that is reported
      as revenue from servicing loans on the statements of operations and changes in net position. The


                                                  7                                               (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2005 and 2004
                                       (Dollars in thousands)



      Bank’s loan servicing fee is equal to one-eighth of one percent more than the contractual interest rate
      with Treasury.

(i)   Legislatively-mandated Expense
      In prior years, the Bank purchased certificates of beneficial ownership (i.e., loans reported as loans
      receivable on the statement of financial position) from the Rural Utilities Service (RUS), a
      component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to
      issue loans to non-federal entities, specifically private utility companies. In 1987, Congress passed
      legislation (i.e., 7 USC Sec. 940c - Cushion of Credit Payments Program) that required RUS to
      develop and promote a program to encourage private utility companies to voluntarily make deposits
      into cushion of credit accounts established within RUS. The legislation also indicated that private
      utility companies may reduce the balance of its cushion of credit account only if the reduction is
      used to make scheduled payments on loans received from RUS. In accordance with the legislation,
      the private utility companies accrue interest at the higher of 5% or the weighted average rate of the
      certificates of beneficial ownership on cash deposited into the cushion of credit accounts with RUS.
      The legislation also indicated that RUS shall receive an interest credit from the Bank equal to the
      amount of interest RUS pays to the private utility companies. The Bank records the interest credit in
      the period the cost is incurred as a legislatively-mandated expense in the statement of operations and
      changes in net position.

(j)   Administrative Expenses
      The Bank is subject to the general supervision and direction of the Secretary. As provided by law,
      the Secretary acts as Chairman of the board of directors. Employees of Treasury’s Departmental
      Offices perform the Bank’s management and accounting functions; its legal counsel is the General
      Counsel of the Treasury. The Bank reimburses Treasury for the facilities and services it provides.
      The amount of such reimbursements for the years ended September 30, 2005 and 2004, was $2,945
      and $3,139 respectively, and is included as administrative expenses in the statement of operations
      and changes in net position.

(k)   Net Position
      The Bank can borrow from Treasury to meet its immediate cash needs and can also seek
      appropriations from Congress to make up for accumulated losses that will not be met by income.

(l)   Management’s Use of Estimates
      The preparation of financial statements in conformity with GAAP requires management to make
      estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
      contingent assets and liabilities at the date of the financial statements and the reported amounts of
      income and expenses during the reporting period. Actual results could differ from those estimates.

(m)   Tax-Exempt Status
      The Bank is exempt from tax in accordance with Section 11(a) of the Federal Financing Bank Act of
      1973 (12 USC 2281).

                                                  8                                             (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2005 and 2004
                                              (Dollars in thousands)



      (n)   Related Parties
            The Bank conducts most of its financial transactions with other federal entities and therefore the
            financial statement balances that represent transactions with other federal entities include all assets,
            liabilities—except borrowings from the public of $10 as of September 30, 2005 and 2004, revenues,
            and expenses.

(2)   Loans Receivable
      Loans receivable represent the outstanding balances for loans to agencies. The Bank has the ability and
      intends to hold loans receivable until maturity or payoff. At September 30, 2005, the Bank had outstanding
      loans receivable of $27,774,344 with interest rates ranging from 1.617% to 16.183%, and maturity dates
      from October 1, 2005 to January 3, 2040. At September 30, 2004, the Bank had loans receivable of
      $29,325,904 with interest rates ranging from 1.055% to 16.183%, and maturing dates ranging from
      October 1, 2004 to January 3, 2039.

      Loans receivable at September 30, 2005 and 2004, consist of the following:
                                   Agency                                         2005                 2004
      Rural Utilities Service, Department of Agriculture                  $     18,535,948           16,961,008
      Rural Utilities Service, Department of Agriculture (CBO)
        certificates of beneficial ownership                                     4,270,207            4,270,207
      General Services Administration                                            2,201,455            2,209,390
      U.S. Postal Service                                                               —             1,800,000
      Foreign Military Sales, Department of Defense                              1,244,459            1,464,945
      Low Rent Public Housing, Department of
        Housing and Urban Development                                              971,927            1,054,777
      Farmers Home Administration, Department of Agriculture                           —                880,000
      Ship Leasing, Department of Defense, Navy                                    375,712              498,583
      Historically Black Colleges and Universities, Department
        of Education                                                               126,500              119,485
      Small Business Administration                                                 39,705               56,575
      Virgin Islands, Department of the Interior                                     5,523                7,641
      Federal Railroad Administration, Department of
        Transportation                                                               2,694                2,887
      Community Development Block Grants, Department of
        Housing and Urban Development                                                  214                  406
                    Total loans receivable                                $     27,774,344           29,325,904


      The loans receivable due within one year is $1,061,045 and $3,358,562 as of September 30, 2005 and
      2004, respectively.




                                                        9                                              (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2005 and 2004
                                             (Dollars in thousands)



(3)   Borrowings
      Under the FFB Act, the Bank may, with the approval of the Secretary of the Treasury, borrow without limit
      from the Treasury. Repayments on Treasury borrowings match the terms and conditions of corresponding
      loans made by the Bank and bear interest at the respective rate as determined by the Secretary of the
      Treasury. The Bank’s borrowings are repayable on demand. At September 30, 2005, the Bank had
      Treasury borrowings of $12,426,608 with interest rates ranging from 1.448% to 16.050%, and maturity
      dates from October 1, 2005, to January 3, 2040. At September 30, 2004, the Bank had Treasury borrowings
      of $29,323,396, with interest rates ranging from 1.055% to 16.050%, and maturity dates from October 1,
      2004 to January 3, 2039.

      Additionally, at September 30, 2005 the Bank had borrowings of $14,000,000 and an associated
      unamortized premium of $474,640 (also see note 6 for details of transaction) from the Civil Service
      Retirement and Disability Fund (CSR&DF), which is administered by the Office of Personnel
      Management (OPM). These borrowings are at stated interest rates ranging from 4.625% to 5.625%,
      effective interest rate of 4.125% and with maturity dates ranging from June 30, 2009 to June 30, 2019. The
      principal amounts, maturity dates and interest rates on the debt to OPM are the same as the obligations
      previously issued by Treasury’s Bureau of the Public Debt to OPM as investments.

      Borrowings from the public amounted to $10 at September 30, 2005 and 2004.

      The scheduled principal repayments below reflect maturities of the Bank’s borrowings and do not
      necessarily match the maturities of assets in the Bank’s loan portfolio. Scheduled principal repayments of
      borrowings as of September 30, 2005, are as follows:
                          2006                                           $     1,061,045
                          2007                                                   188,410
                          2008                                                   650,289
                          2009                                                 2,376,146
                          2010                                                 1,830,371
                          2011 and thereafter                                 20,320,357
                                        Total principal payments              26,426,618
                                        Plus unamortized premium                 474,640
                                        Total borrowings                 $    26,901,258


(4)   Fair Value of Financial Instruments
      (a)   Funds with U.S. Treasury
            The carrying amount approximates fair value because of the liquid nature of the funds with Treasury.




                                                      10                                            (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2005 and 2004
                                             (Dollars in thousands)



      (b)   Loans Receivable and Borrowings
            The fair value of loans receivable and borrowings is calculated using discounted cash flow analyses
            based on contractual repayment terms. The discount rates used in the loans receivable analysis are
            based on interest rates currently being offered by the Bank on loans of similar maturity and other
            characteristics. The discount rates used in the borrowings analysis are based on interest rates of
            current borrowings from Treasury using similar maturity and other characteristics. The fair value of
            loans receivable at September 30, 2005 and 2004, was $31,759,870 and $34,355,330, respectively.
            The fair value of borrowings at September 30, 2005 and 2004, was $27,195,570 and $30,152,100,
            respectively.

      (c)   Advances to Others, Accrued Interest Receivable, Accrued Interest Payable, and Other Liabilities
            The carrying amount of advances to others, accrued interest receivable, accrued interest payable, and
            other liabilities approximate fair value as they represent the amounts expected to be realized or paid
            and are current assets and liabilities.

(5)   Net Position
      At September 30, 2005 and 2004, the net position includes the following:
                                                                                 2005               2004
      Transfers to Treasury                                            $     (1,682,847)          (1,682,847)
      Cumulative results of operations and gains/losses on
        extinguishment of borrowings treated as capital
        transactions                                                           2,903,490           2,295,833
                     Net position                                      $       1,220,643             612,986


      Included in the net position activity is income the Bank earned prior to fiscal year 2000 that the Bank
      transferred to Treasury.

(6)   Capital Transactions
      On November 15, 2004 the Bank issued debt obligations of $14,000,000 with interest rates ranging from
      4.625% to 5.625% and maturity dates ranging from June 30, 2009 to June 30, 2019, a related premium of
      $507,613 and a debt obligation of $246,221 with a maturity date of December 31, 2004, to CSR&DF and
      received in exchange $14,000,000 of investments at par value “Specified Treasury Specials,” issued by
      Treasury with interest rates ranging from 4.625% to 5.625%, and maturity dates ranging from June 30,
      2009 to June 30, 2019, related purchased accrued interest receivable of $246,221, and related purchased
      premium of $507,613.

      On November 15, 2004, the Bank used the “Specified Treasury Specials” received from the CSR&DF of
      $14,000,000; related premium of $507,613; and related interest receivable of $246,221 to extinguish
      $14,447,217 of borrowings from the Treasury, related capitalized interest of $15,064; and related interest


                                                       11                                            (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2005 and 2004
                                             (Dollars in thousands)



      payable of $82,473. In addition, the Bank received a note receivable from the Treasury of approximately
      $246,221 that was due on December 31, 2004.

      These transactions resulted in the Bank owing debt to the CSR&DF instead of owing debt to the Treasury
      and resulted in a gain of $37,141, which represents a capital transaction with Treasury.

      In June and September 2005, the Bank made early repayments to the Treasury totaling $969,240 resulting
      in a net gain of $14,552, which represents a capital transaction with Treasury.

(7)   Capitalized Interest
      Capitalized interest receivable was approximately $58,687 and $69,524, and the related capitalized interest
      payable was $13,860 and $18,163 as of September 30, 2005 and 2004, respectively. Capitalized interest
      receivable and payable are reported as part of the loans receivable and borrowing balances, respectively, on
      the statement of financial position.




                                                       12
                                        FEDERAL FINANCING BANK
                                 Other Supplementary Information – Schedule 1
                         Unaudited – See Accompanying Independent Auditor’s Report
                                          September 30, 2005 and 2004
                                              (Dollars in thousands)



In prior years, the Federal Financing Bank (Bank) purchased certificates of beneficial ownership (i.e., loans
reported as loans receivable on the statement of financial position) from the Rural Utilities Service (RUS), a
component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to issue loans to
non-federal entities, specifically private utility companies. In 1987, Congress passed legislation (i.e., 7 USC Sec.
940c - Cushion of Credit Payments Program) that required RUS to develop and promote a program to encourage
private utility companies to voluntarily make deposits into cushion of credit accounts established within RUS.
The legislation also specified that private utility companies may reduce the balance of its cushion of credit
account only if the reduction is used to make scheduled payments on loans from RUS. In accordance with the
legislation, the private utility companies accrue interest at a rate of 5 percent per annum on cash deposited into
the cushion of credit accounts with RUS. The legislation also specified that RUS shall receive an interest credit
from the Bank equal to the amount of interest RUS pays to the private utility companies. The Bank records the
interest credit in the period the cost is incurred as a legislatively mandated expense. As of September 30, 2005
and 2004, the outstanding principal balance of the 19 RUS loans totaled $4,270,207, with interest rates ranging
from 7.755% to 15.325%, and maturity dates ranging from 2006 to 2021. In October 1998, the Bank received an
appropriation that off-set the RUS-CBO interest credits by $917,699.

The interest credits that the Bank has provided RUS-CBO through September 30, 2005 is as follows:
                                                                                  Interest
                                                                                   credit
                           Fiscal year:
                              1988–2001                                    $      1,122,051
                              2002                                                   98,465
                              2003                                                   71,810
                              2004                                                  150,134
                              2005                                                  244,420
                                          Total interest credits                  1,686,880
                              Less appropriation                                   (917,699)
                                          Total                            $        769,181




                                                        13
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                   Independent Auditors’ Report on
                               Internal Control over Financial Reporting


Inspector General, U.S. Department of the Treasury, and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2005 and 2004, and the related statements of operations and changes in net position and
cash flows for the years then ended, and have issued our report thereon dated October 31, 2005. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

In planning and performing our fiscal year 2005 audit, we considered the Bank’s internal control over
financial reporting by obtaining an understanding of the Bank’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02, as applicable to the Bank, and Government Auditing Standards. We
did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to provide assurance on the
Bank’s internal control over financial reporting. Consequently, we do not provide an opinion thereon.

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be material weaknesses under standards issued by
the American Institute of Certified Public Accountants. Material weaknesses are conditions in which the
design or operation of one or more of the internal control components does not reduce to a relatively low
level the risk that misstatements, in amounts that would be material in relation to the financial statements
being audited, may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Because of inherent limitations in any internal control, misstatements
due to error or fraud may occur and not be detected. However, we noted no matters involving the internal
control and its operation that we considered to be material weaknesses as defined above. Exhibit I presents
the status of prior year reportable conditions.

We noted certain matters that we reported to the management of the Bank in a separate letter dated
October 31, 2005.




                                                                      14
                                   KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                   member firm of KPMG International, a Swiss cooperative.
This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, the OMB, the U.S. Government Accountability Office, and
the U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




October 31, 2005




                                                  15
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury, and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2005 and 2004, and the related statements of operations and changes in net position and
cash flows for the years then ended, and have issued our report thereon dated October 31, 2005. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

The management of the Bank is responsible for complying with laws, regulations, and contracts applicable
to the Bank. As part of obtaining reasonable assurance about whether the Bank’s fiscal year 2005 financial
statements are free of material misstatement, we performed tests of the Bank’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the financial statement amounts, and certain provisions of other laws and
regulations, specified in OMB Bulletin No. 01-02. Our audit procedures were not designed to test the
requirements of OMB Bulletin No. 01-02 relating to the Federal Financial Management Improvement Act
(FFMIA) of 1996, which are not considered applicable at the Bank level. FFMIA requirements will be
reviewed and reported on as part of the financial statement audit of the U.S. Department of the Treasury.
We limited our tests of compliance to the provisions described in the preceding sentence and we did not
test compliance with all laws, regulations, and contracts applicable to the Bank. However, providing an
opinion on compliance with laws, regulations, and contracts was not an objective of our audit and,
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards or
OMB Bulletin No. 01-02.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, the OMB, the U.S. Government Accountability Office, and
the U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




October 31, 2005


                                                      16
                                                                                               Exhibit I
                                      FEDERAL FINANCING BANK
                                Summary of the Status of Prior Year Findings
                                            September 30, 2005




               Prior Year Condition                                      Current Year Status
Accounting for non-routine transactions                  This condition has been corrected.




                                                    17
